"- c_





                                  NEW JERSEY MEDICARE

                   BENEFICIARY SATISFACTION





               t"RV'CE$.
                           ljJ'




         '0


              IiVd:m



         OFFICE OF INSPECTOR GENERAL
         OFFICE OF EVALUATION AND INSPECTIONS
                                                     OCTOBER 1990
                      ,"




                           OFFICE OF INSPECTOR GENERAL
The mission of the Office of Inspector General (OIG) is to promote the efficiency,
effectiveness and integrity of programs in the United States Department of Health and Human
Services (HHS). It does this by developing methods to detect and prevent fraud , waste and
abuse. Created by statute in 1976 , the Inspector General keeps both the Secreta and the
Congress fully and currently informed about programs or management problems and
recommends corrective action. The OIG performs its mission by conducting audits
investigations and inspections with approximately 1,400 staff strategically located around the
countr.


                   OFFICE OF EVALUATION AND INSPECTIONS
This report was produced by the Office of Evaluation and Inspections (OEI), one of the three
major offices within OIG. The other two are the Office of Audit Services and the Offce of
Investigations. The OEI conducts inspections which are typically short-term studies designed
to determne program effectiveness , efficiency and vulnerability to fraud or abuse.

The report is entitled New Jersey Medicare Beneficiar Satisfaction. " This inspection
requested by the Health Care Financing Administration , sought to determine beneficiary
satisfaction with the Medicare program in New Jersey.

This study was conducted under the direction of Thomas F. Tully, Regional Inspector General
of Region II , Office of Evaluation and Inspections. Paricipating in this project were the
following people:





Region /I                                      Headquarters
Jack Molnar Project Leader                     Vicki Greene
Jodi Nudelman                                  Brian Ritchie
Tracey Rennie
Willam Counihan
Nancy Harson

For additional copies of this report , call Jack Molnar, the project leader, at (212)264- 1998.
                NEW JERSEY MEDICARE

           BENEFICIARY SATISFACTION





                      Richard P. Kusserow
                      INSPECTOR GENERAL




OEI- 02- 90- 02040                          OCTOBER 1990
                                EXECUTIVE SUMMARY

PURPOSE

To determne beneficiar   satisfaction with the Medcar program in New Jersey.


BACKGROUND

This inspection was conducted at the request of the Health Car Financing Admnistration
(HCFA). Following the change of carers in New Jersey at the beginning of 1989, HCFA
received complaints from the New Jersey Congressional delegation and from the
physiciansupplier community. In response, HCFA asked the Offce of Inspector General
(OIG) to survey the level of satisfaction with Medcare services among New Jersey
beneficiares.

This survey follows two simlar sureys conducted by OIG in 1989. The first surey was of
Medicare beneficiares nationwide; the second was limited to Georgia, which also had a recent
change in Medcar carer.


METHODOLOGY

A questionnaie was mailed to 641 radomly selected New Jersey beneficiares who had fied
claims with Pennsylvania Blue Shield in 1989. The response rate was 73. 8 percent. New
Jersey responses were compared to Georgia and national results where appropriate.


FINDINGS

Overal, New Jersey beneficiares are satisfied with servces. Specifically, they are satisfied
with the claims processing and report that information is available when they nee it. Furer
they like and use the 8oo-toll- fre telephone number, but some problems were noted. In
virually all areas, the fmdings for New Jersey beneficiares are comparable to those in earlier
OIG reports for nationwide and Georgia beneficiares.


AGENCY COMMENTS

HCFA commented on the     drt          Overall, HCFA is pleased that the surey results reflect
                                report. c

positively on the efforts of Pennsylvania Blue Shield. The report was moded based on
HCFA' s suggested clarcations. The full text of HCFA' s comments ar attched.
                                        ......... ... ................................
                                              .........  ...........
                                                       .... ..........
                                                            ....
                                                      .................   ..................
                                                                  ...............
                                                                       .....
                                                                        . ........    ......
                                                                                     .......
                                                                                     ...         ............
                                                                                                ..........
                                                                                               ..........
                                                                                              .....
                                                                                         ..........
                                                                                       ....    ..... ...    ......
                                                                                                     ..........
                                                                                                            ..... ..........
                                                                                                                    ...............................................
                                                                                                ....................................
                                                                                                                   ..............
                                                                                                                .............   ............................
                                                                                                                                    ...........
                                                                                                                                            .... ...
                                                                                                                                                  ...... .... ........
                                                                                                                                                     .................




                                                        TABLE OF CONTENTS


EXECUTIVE SUMMARY


I NTRO DU CTION .... ........ ................. .................. 
                                    ................................................. 1





        PU R POSE........ 
                                                                                                  ......... .... ........ ............ 1


        BACKG ROU N D ....................... .......... ....... ........ ................................ .................... 1


        M ETHO DOLOG                    V ... .....

FI N DI NGS................... 





                New Jersey Beneficiaries Express
                Overall Satisfaction with Services............................................... 3



                Beneficiaries are satisfied with claims processing .........................


                Beneficiaries report information is readily available.........................                                                                           4



                Beneficiaries know of and use the toll-free                                                number......................... 5



                Beneficiaries rate Medicare services good or very good .................


        AGENCY            CO M ME NTS




APP EN DI 
       X A........ ........... ..... ........ ..... ....                                  ............... .... ........ ... .... ...... ....... A -           1




APP EN DIX 
         B..... ............ .... ......                                                                                                       ... B­

                                      INTRODUCTION


PURPOSE

To determine beneficiar   satisfaction with the Medicare program in New Jersey.

BACKGROUND

Medicare, a Federal health insurance program for people 65 or older and certain disabled

billon.
people, serves over 33 milion people, and in Fiscal Year 1987 paid benefits in excess of $79


The Medicare program has two pars.     Hospital insurance (Par A) helps pay for inpatient
                                                             home health care and hospice
hospital care, some inpatient care in a skiled nursing facilty,
care. Medical insurance (Par B) helps pay for medically necessar doctors ' services,
outpatient hospital services, home health care and a number of other medical services and
supplies not covered by the hospital insurance par of Medicare. A person entitled to
Medicare automatically receives coverage under Pa.'1 A. Par B , however, is optional and
beneficiares pay a monthly premium. Both pars of Medicare have deductible and
coinsurance requirements.



The Health Care Financing Administration (HCFA) is responsible for the Medicare program.
The Social Security Administration (SSA) shares responsibilty by establishing eligibility,
enrollng beneficiares and    collecting premiums for Par B coverage. For claims
administration , the Federal government contracts with private insurance organizations. The
companies which handle Par A claims are called intermediares; those handling Par B claims
are called carers.

In 1989, the Office of Inspector General (OIG) conducted a national survey of Medicare
beneficiares to assess their experience and satisfaction with the Medicare program. Also in
1989, HCFA changed carers in Georgia and requested the OIG to survey beneficiar
satisfaction with services provided by the new Medicare carer. Both studies found that
Medicare beneficiares were generally satisfied with services.

As of Januar 1 , 1989, carers also changed in New Jersey, with Pennsylvania Blue Shield
replacing the Prdential Company. The new carer, however, has received criticism from
members of the New Jersey Congressional delegation and the physician/supplier community.
In response, HCFA requested that the OIG determine the level of satisfaction of New Jersey
beneficiares.
METHODOLOGY

A questionnaire was mailed in March 1990 to 641 randomly selected New Jersey Medicare
beneficiares who had filed claims with Pennsylvania Blue Shield in 1989. The sample size
was the same for the National and Georgia studies.

The sample was reduced to 619 because 21 respondents were deceased and 1 was erroneously
selected. In all , 457 questionnaires were completed, representing a 73. 8 percent response rate.

The survey questioned beneficiares about three general areas: claims processing, aval1ability
of infonnation , and telephone service. Twenty- three survey questionsc were taken from the
national OIG inspection, " Survey of Medicare Beneficiar Satisfaction. " The New Jersey
responses to these questions were compared to both the Georgia and national study results. In
addition , two new questions were taken from previous OIG annual Social Security client
satisfaction studies and responses to them were compared with those of Social Security clients.
                                          FINDINGS

New Jersey Beneficiaries Express Overall Satisfaction with Services.

Beneficiaries are satisfied with claims processing.

Eighty-six percent of New Jersey beneficiares surveyed report that they are very or generally
satisfied with the way Medicar has processed their claims. This is comparable to the 85
percent Georgia response and the 88 percent nationwide rate obtained when those Medicare
beneficiares were asked the same question.





                 SATISFACTION WITH CLAIMS PROCESSING
                     % GENERALLY OR VERY SATISFIED
               100




                       NEW JERSEY          GEORGIA            NATION




Three- quarers of New Jersey beneficiares report their clais are processed quickly enough;
this is virtually identical to the responses given by beneficiares nationally and by those from
Georgia. New Jersey beneficiares are less likely to seek help in completing their claims than
beneficiares nationally. Fifty-eight percent of New Jersey beneficiares report they " never
need help completing the claims form. The comparable figure was 41 percent for
beneficiares nationaly.



The sources of help in filing out Medicare claim forms for New Jersey beneficiares are
similar, but not identical , to those for beneficiares nationally. While both groups would go to
their doctors first, it appears that NewJersey beneficiares would be more likely to rely on the
carer and friends and less likely to rely on Social Security field offices than beneficiares
across the nation.
                                SOURCES OF HELP WITH CLAIMS
                                                                        National
                 Doctor                                  71%              69%
                 Carer                                   61%              53%
                 Friend                                  46%              33%
                 Social Security                         42%              51%
                 Senior Center                           30%              29%


The most common problems reported by New Jersey beneficiares are (1) understanding the
amount paid on their claims (49%), and (2) determining how much should be paid by other
insurance (36%). These were also the most common problems reported by nationwide
beneficiares.

Beneficiaries report information is readily available.

Eighty-six percent of New Jersey beneficiares report they can get information when they need
it. In a similar question, Georgia and national beneficiares report 83 and 85 percent rates
respectively. The majority of beneficiares who sought information report that they were able
to get it when needed. Sixty percent of those who needed information say most of the time
they can get information; 29 percent say some of the time.



                  AVAILABILITY OF MEDICARE INFORMATION
                      % CAN GET INFORMATION

                100




                          NEW JERSEY        GEORGIA            NATION
New Jersey beneficiares , however, do not go to the same places for infonnation as
beneficiares do nationally. They are more likely to go to the carer and to refer to the
Medicare Handbook , and are less likely to go to Social Security offices than beneficiares
across the nation.


                                   SOURCES OF INFORMATION
                                                                         National
                 Carer                                  80%                51%
                 Handbook                               78%                63%
                 Social Security                        69%                77%



Of the three- quarers of New Jersey beneficiares who recal receiving pamphlets on
Medicare, 91 percent rate them as " generally helpful." This is virually identical to the
national rating. New Jersey beneficiares also rate the quality of the pamphlets highly.
Eighty-eight percent say they are easy to understand, 82 percent report they provide suffcient
infonnation , and 94 percent believe the prit is large enough.

Beneficiaries know of and use the toll-free number.

Seventy percent of New Jersey beneficiares are aware of the toll- free number for their carer
as listed in the Medicare Handbook. Half of the beneficiares nationally knew of the number.
New Jersey beneficiares are also more likely to use this number. While 47 percent use it in
New Jersey, less than a third of th nationwide and Georgia beneficiares use the toll- free
number.

Further, of the New Jersey beneficiares who use the toll- free number, 79 percent are generaly
or very satisfied with the service they receive. Seventy-one percent of Georgia s and 80
percent of national beneficiares are generally or very satisfied with telephone service.

However, New Jersey beneficiares repon some problems with the toll- free number. These
problems are simiar to those expressed by national and Georgia beneficiares. Specifically,
three- quarers of New Jersey beneficiares who indicated they called the hotline, report that
the line was busy the last time they called. The figures for nationwide and Georgia
beneficiares are 71 and 70 percent respectively. About 60 percent of the New Jersey
beneficiares who called the hotline, report being put on hold too long, which is identical to
the findings in the other two surveys.
                           SATISFACTION WITH 800                      #
                      % GENERALLY OR VERY SATISFIED
                100




                         NEW JERSEY          GEORGIA                NATION




Most beneficiaries rate Medicare services good or very good.

Seventy-eight percent of New Jersey Medicar beneficiares rate overall Medicare services
good or very good. While there is no comparable data for nationwide and Georgia
beneficiares, this rating is similar to the 83 percent average rating given by Social Security
clients over the past six years.




                         SATISFACTION WITH SERVICES
                      % GOOD OR VERY GOOD
                100




                             NJ MEDICARE                      SSA
When asked to compare Medicare services to other services from Federal , State and local
government agencies, 95 percent of New Jersey Medicare beneficiares say the services they
receive are as good as , or better than , those received from other government agencies. This
compares to 94 percent of nationwide Social Security clients.


AGENCY COMMENTS

HCFA commented on the draft report. Overall, HCFA is pleased that the survey results reflect
positively on the efforts of Pennsylvania Blue Shield (PBS) to encourage beneficiar contact
and promote beneficiar education. HCFA also found the survey s identification of provider
relations as the likely predominant source of Congressional concerns about PBS to be
extremely helpful.

The report was modified based on HCFA' s   suggested clarfications.   The full text of HCFA'
commen ts are attached.
                                                             APPENDIX A

         question                                                                                   percentage
                                                                                NJ#                         NTL
         In general do you think:

         a. The Medicare program is understandable
                                              YES                                369


         b. You can get information about Medicare when you need it
                                              YES       376


         c. Medicare payment policies are understandable
                                               YES	      334
                                                                                  106

         d. Medicare pays your claims quickly enough
                                               YES	                              330
                                                                                  107

         Do you or your spouse have other medical insurance that covers your medical
         expenses in addition to what Medicare covers?

                           MEDICAID
                           PRIVATE INSURANCE
                           TO SUPPLEMENT MEDICARE                                355
                           CHAMPUS


from                       OTHR
         Do you recall getting any pamphlets or handbooks in the mail 	

         Government or notices enclosed with your Social Security check that describe the
         Medicare program?
                                                                                                    the Federal


                                                                                 124
                                                                          YES    303

         Thinking about those pamphlets, handbooks and notices with your check were
         most of them:

                           GENERALLY HELPFU                                      256
                           GENERALLY NOT HELPFU



 NJ = New Jersey GA = Georgia                            NT = National          x = Was not asked
 SSA = Social Security Administration
 NOTE:   Questions            11   and   13   required a narrative response and are not included.
question                                                          percentage
                                                  NJ#                GA NTL
Thinking about the pamphlets, handbooks and notices you have received would
you say that:

a. The wording is easy to understand
                                           YES     249


b. The amount of information covered is suffcient
                                           YES
                                           NO    224


c. The lettering is large enough to read
                                           YES     266


Next, we would like to ask about times when you have needed to get specific
information about your own Medicare coverage. How often were you able to get
the information you needed?

           MOST OF TH TIME	                        159
           SOME OF TH TIME
           SELDOM OR NEVER
           I HAVE NEVER NEEDED
              TO GET INFORMATION                   157

The following are some places people might go to get answers if they have
questions about their Medicare coverage. Would you be likely to go to any of the
following:

a. The insurance company that processes your Medicar claim
                                           YES 307
                                           NO
b. The Medicare Handbook
                                           YES     265


c. The Social Security office
                                           YES	    243
                                                   110
       question	                                                         percentage
                                                     NJ#	                          NTL
       d. A frend or relative
                                             YES	     103
                                                      202

       e. An insurance salesperson
                                             YES
                                                      274

       f. A senior citizens ' group
                                             YES	     117
                                                      197

10.	   Do all of your doctors submit your Medicare claims for you so that you do not
       have to submit the claims yourself?

                   ALL OF TH TIM                      102
                   MOST OF TH TIME                    101
                   SOMETIMES                          155
                   SELDOM OR NEVER

12.	   Overall, how satisfied are you with the way Medicare has processed the claims you
       have submitted?

                   VERY SATISFIED
                   GENERALLY SATISFFED                187                              62
                   GENERALLY DISSATISFID

                   VERY DISSATISFIED

14.	   Do you get help fillng out your Medicare claim forms?

                   ALL OF TH TIME
                   SOME OF TH TIME
                   NEVER                              189

15.	   Listed below are some places people might go to get help fillng out Medicare claim
       forms. If you needed help in fillng out your Medicare forms would you be likely
       to get help from any of the following?

       a. A frend or relative
                                             YES	     110
                                                      129




                                             A- 3

       question                                                            percentage
                                                       NJ#                        NTL
       b. Your doctor s offce
                                              YES           190


       c. A Social Securty offce
                                              YES	          100
                                                            136

       d. A senior citizens ' center
                                              YES
                                                            153

       e. The insurance company that processes your Medicare claims
                                            YES	      155
                                                            101

16. The following are possible reasons why someone might be dissatisfied with Medicare
claims. Have any of the following been a problem for you?

       a. Fillng out Medicar claims
                                              YES
                                                            243

       b. Getting information on the status of your claim
                                               YES
                                                            191



                                              YES
                                              NO  178        99 

       c. Determning how much should be paid by other insurance you have



       d. Understanding what Medicare paid on your claims and why
                                              YES 141
                                              NO 	          147

17.	   There is a toll- free number in your Medicare Handbook that you can use to
       telephone the insurance company to get information about your Medicare claims.
       Did you know about this toli- free number before today?

                                                            134
                                              YES           309
       question                                                             percentage
                                                         NJ#                   GA NTL
18.	   Have you ever used this toll- free number to get information about Medicare
       claims?
                                                          237
                                             YES          209


19.	   Thinking about the last time you used this toll- free number, how satisfied were you
       with the service you received?

                  VERY SATISFIED

                  GENERALLY SATISFIED

                  GENERALLY DISSATISFID

                  VERY DISSATISFIED

20.	   Listed below are possible reasons that someone would be dissatisfied with this
       toll- free service. Did you have any of the following problems the last time you
       called the toll- free number?

       a. Line was busy

                                             YES          137



       b. Put on "Hold" too long

                                             YES          103

                                                                                          40 .

       c. Answers given were not understandable
                                            YES
                                                          125
       d. Answers given were not correct
                                             YES
                                                          132

       e. Person answering call was not very courteous
                                              YES
                                                          122




                                             A- 5

       question                                                             percentage
                                                    NJ#                       GA NTL
21.	   Sometimes people disagree with the decision made on their Medicare claims.
       When this happens, you may appeal or request a review of those decisions. Did
       you know before today that you could appeal or request a review?


                                           YES        340

22.	   In the past year have you appealed a decision made by Medicare/PA Blue Shield on
       a claim you submitted?

                                                      288
                                           YES

23.	   Overall , how would you rate the service that Medicare/PA Blue Shield has given
       you?
                                                     NJ#	                     SSA

                  VERY GOOD                           165

                  GOOD                                186

                  FAIR
                  POOR
                  VERY POOR

24.	   How would you rate Medicare/PA Blue Shield' s service compared to the service
       you get from other Federal , State, and local government agencies?

       MedicarelPA Blue Shield is much

       better than others


       MedicarelPA Blue Shield is

       somewhat better than others


       MedicarelPA Blue Shield is

       about as good as others                        129


       MedicarelPA Blue Shield is

       somewhat worse than others


       MedicarelPA Blue Shield is

       much worse than others





                                           A- 6

      question                                                           percentage
                                                   NJ#                       GA NTL
25.   Is there anything else you want to tell us about Medicare, or PA Blue Shield?

      Positive Comments
      Negative Comments
      Mixed Comments
                                       APPENDIX B


                 Analysis   of   Respondents Versus Non-Respondents

Our original sample of 641 beneficiares was reduced to 619 by eliminating 21 deceased
beneficiares and 1 beneficiar covered under the Raioad Board Retiement System. Of the
619 questionnaires , 457 were returned to our offce. This represents a response rate of73.
percent. An important consideration in sureys of this type is the bias that may be present in
the results if the non-respondents are different than the respondents. To test for the presence
of any bias, we compared responders with non-responders, for certain varables, and attempted
to determine how any diffetences might affect the results. The varables tha:t we decided to
compare were age, sex , race, medicare status, total charges, and total reimbursed amounts.
The categorical varables were tested using a Chi-square with the appropriate degrees of
freedom. The continuous varables (age, charges, and reimbursements) were tested using a
two-tailed t- test.

The results of the analysis for the thee categorical varables are presented in Table 1. The
Chi-square values given in the table provide a test of the difference in the distrbution of the
respondents versus the non-respondents for each varable. The table also shows the response
rates by the different values of the varables. The analysis shows that there are significant
differences in response rates between aged persons and the disabled, and between whites and
nonwhites. The difference in response rates by Medicare status (aged, disabled, or ESRD) is a
result of the low response rate for disabled beneficiares (41. 7 %) compared to that for aged
beneficiares (75. 9%). The diference in response rate by race is due to the low response rate
for non-white beneficiares (58. 5%), versus that for white beneficiares (75. 7%).

In order to determine if these differences may have biased our results, we tested the effects on
several of the survey s key questions. The questions selected for analysis were:

               Is Medicare understandable?

               Can you get information when you need it?

         1.c.	 Are Medicare payment policies understandable?

               Are claims paid quickly enough?


One method to determine the effects the non-respondents might have is to assume that their
responses would have been similar to respondents of the same medicare status or race. Under
this assumption , the changes in the proporton of beneficiares that answered " yes " to the
questions are presented in Table 2 for medicare status.
                                        TABLE 1
                   New Jersey Medicare Beneficiary Survey

                      ReSDonders VS Non-ReSDonders

MEDICARE STATUS


                                                   Non                                  Percent
               Responders                     Responders                  Total       Responding
Aged          440        96.3%               140          86.4%              580           75.
Disabled                    3.3%                          13.                             41.7%
ESRD                        0.4%                                                           66.

              457                            162                             619           73.

                                                                            CHI- SQ = 20.531*

                                                                                           E = 1


SEX

                                                   Non                                  Percent
               Responders                    Responders                   Total       Responding
Male          178        38.                              38.                240          74.2%
Female        279        61.1 %              100          61.7%              379          73.
              457                            162                             619          73.

                                                                                 CHI- SQ = 0. 023

                                                                                           E = 1


RACE

                                                   Non                                  Percent
               Responders                    Responders                  Total        Responding
White         412        90.2%               132          81.5%              544          75.
Non-White                                                 16.                             58.
Unknown                     1.5%                           1.9%                          70. 05%

              457                            162                             619          73.

                                                                               CHI- SQ=8. 980

                                                                                            E=1
                              *Significant AT P -c 0. 001; ESRD Status excluded from calculation.
                            Significant AT P -c 0. 001; Unkown Status excluded from calculation.
                                             TABLE 2
                                        Medicare Status



                                              Percent          Adjusted Percent
                      Question            Answering Yes         Answering Yes

                             1.a.                 80.                80.3%

                             1.b.                 82.                81.8%

                             1.c.                 73.                72.4%

                             1.d.                 72.                71.8%


Given the fact that these changes are so small , we feel that the medicare status difference
between respondents and non-respondents has essentially no effect on the outcome of this
survey. The same analysis of changes in the proportion of beneficiares that answered " yes " to
the questions is presented in Table 3 for race.

                                             TABLE 3
                                              Race

                                             Percent           Adjusted Percent
                      Question            Answering Yes         Answering Yes

                             1.a.                 80.                80.

                             1.b.                 82.                82.

                             1.c.             73.3%                  73.

                             1.d.             72.                    72.


Again , because the changes are this small , we feel that the race difference between responding
and non-responding beneficiares has no overall effect on our results.

Turning to the continuous varables, we found that the average age of those beneficiares
responding to the survey was 74. 1 years , while that of beneficiares not responding was 73.
years. This difference is not significant. We also compared total charges and total Medicare
reimbursed amounts for calendar year 1989. The average total charges was $439 for
respondents and $477 for non-respondents, while the average reimbursed amount was $357
for respondents and $388 for non-respondents. Neither of these differences proved to be
statistically significant.
Given the results from these analyses, we believe that the results presented accurately
represent the opinions of the sample of clients that were sent questionnaires. It is possible that
those beneficiares who chose not to respond may, in some fashion, differ from those
responding to the survey. However, we do not have the information necessar to determine if
and to what extent, differences exist. In any event, the non-respondents represent a minority
of the beneficiares contrbuting to this analysis. Therefore, we feel that these results give a
reliable picture of the opinions of the universe of New Jersey beneficiares that are covered by
Pennsylvania Blue Shield.




                                              B ­

                                   &.


                                                          Health Care
                                                          Financing Administration
       DEPARTMENT Of HEALTH             HUMAN SERVICES


                                                          Memorandum
Date                  .\ur; I 0 1990

From   Deputy Director.
       Bureau . of Program     Operations

Subject Comments on the OIG Draft Report: New Jersey Medicare
       Beneficiary Satisfaction (OEI-02-90-02040) --INFORMTION

       Chief
       Heal th Care Branch, OIG




       Thank you for fulfilling our request for an evaluation of

       beneficiary satisfaction with the Medicare program in

       New Jersey (NJ) following the transition to a new carrier.

       We submit the following comments on the subject draft

       report for your consideration.   Comments from our

       Philadelphia Regional Office have been included in our

       response. Many of these concerns were discussed at our

       June 25th meeting with OIG. We appreciate the opportunity
       to comment on this draft report.


       General ebserva tions and Comments


          We are pleased that the survey results reflect

          positively on the efforts of pennsylvania Blue Shield

          (PBS) tD encourage beneficiary contact and promote

          beneficiary education.

                                                of provider

           We find the survey s identification
                                                source of
           relations as the likely predominant
 be extremely

           congressional concerns about PBS to
           helpful.
           We suggest that eIG indicate in the narrative which

                                                          of all
           questions were responded to by only a portio
           beneficiaries surveyed.

           We believe that Appendix I would be more easily

           interpreted if the number of respondents to each

           question could be provided.


           We suggest that eIG consider correlating the findings

           reported in the narrative with the corresponding

                                          using footnotes.
           questions listed in Appendix I 

Specific Comments



paqe One


      Stating that " HCFAchanged carriers " in Georgia and
      New Jersey may give the impression to uninformed
                                                 In reality,

      readers that HCFA initiated the changes. 

      the changes were initiated by the Prudential

      Insurance Company, which informed HCFA  in April 1988

                                          carrier.
      that it would no longer serve as a 


paqe Three

      It is noted in the first paragraph that 58% of NJ

      beneficiaries " never "
                            need help completing claim
      forms.  So, at most, 42% of NJ beneficiaries need
      help completing claim forms at least some of the
      time.  The table below that paragraph lists sources
                                             forms.Some of
      beneficiaries use to complete claim       42%,  which
      the numbers in the table are greater than
      is confusing. As we understand it, these numbers
                                                   15 in
      were derived from the responses to Question
      Appendix I and actually measure the relative
      confidence that beneficiaries have in the various
      potential sources df information, rather than the

      number of beneficiaries who actually use each of the

      sources.
paqe Five
                                                   tati ve

       There is a discrepancy between the quanti

                                            full paragraph

       information presented in the second           page.The
       and that in the graph at the bottom of the transposed.
       values for Georgia and for the nation are

       Of the 47% of NJ beneficiaries who have used the

       toll-free inquiry number in the past, a full 79%

                                                    they c were
       reported, in response to Question
19, that "
       generally or very satisfiedsame     last time they
                                    " the time,
       called the  number. At the               the responses
       to Questions 20a and 20b indicate that a high
       percentage of NJ beneficiaries experienced a busy was-
       signal or were left on hold for what they felt
        too long " the last time they called.

     It is contradictory that a high percentage of

     beneficiaries could be both satisfied and

     dissatisfied with their last call to the toll-free

     number. It seems reasonable to believe that NJ
     beneficiaries indicated their general level of
     satis faction with the toll- free number20,inNJresponse to
     Question              19.
                    Responding to Question
                                                                 sking
     beneficiaries may have interpreted it to be 


     whether they had ever experienced any of the

     specified problems. We ,suggest
                               in  its
                                       that OIG ignore the
                                       interpretation and
     phrase, " the last time
     omi t it from future surveys.

     Based on our June 25, 1990 meeting with OIG, we

     understand that, in actuali ty, only a small portion

                                                  20. We

     of the survey respondents answered Questionthis point

     further understand that OIG will emphasiz

     in its final report.



Appendix I
      It would be helpful if OIG noted here that Questions

      5, 8, 11 and 13 are not included because they

      required a narrative response.

      Survey Question 11 asked each NJ beneficiary to
      estimate the number of claims he/she submitted in
       1989. It would be interesting to know whether high-
      volume users of PBS' s services are, generally

      speaking, more or less satisfied with PBS than   low-

                                                  volume
      volume users are. It would seem that high-

      users might account for most of the total encounters

                                                      Does     NJ.
      between the carrier and beneficiaries in

      OIG have any data in this 
regard?

Appendix II
       OIG analyzed how certain variables are related to the
       probability that a given beneficiary would or would
       not respond to the           Once the criticalsurvey.
       variables were identified, OIG corrected for the
       under- reporting by some groups by assuming that non-
       respondents in these groups would respond in the way
       that respondents did.
     While we agree with this adjustment, we note that it

     still doesn t address the issue of possible survey

     bias arising from different attitudes of respondents

                                               respondents
     and non- respondents. It may be that non-
     have fewer complaints, regardless of race, Medicare
     status, etc., than respondents do.
                                    


We are pleased with the positive overall findings of DIG'
review.  Again, thank you for the opportunity to review the
draft report.  Questions about this response should be
                                646-6121.
directed to Dorothy Kielkopf on 



                                CJ"Q
                              Carol J .   Walton
